                   TRANSITION RESOURCES CORPORATION
                                INDIANA
                                  ***

                               AUDIT REPORT ON
                      U.S. DEPARTMENT OF LABOR GRANT
                             NUMBER: AC-10734-00-55


                                Performance Audit for
                    Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                   __________________________________
                                                    Assistant Inspector General for Audit




                                                        Report Number: 21-03-001-03-365

                                                        Date Issued: September 8, 2003
                                                  TABLE OF CONTENTS

                                                                                                                                        Page


ACRONYMS.............................................................................................................................. i

EXECUTIVE SUMMARY......................................................................................................... 1

INTRODUCTION AND BACKGROUND ................................................................................ 3

OBJECTIVES, SCOPE, AND METHODOLOGY .................................................................... 4

FINDINGS................................................................................................................................. 6

     1. Twenty-One (50 percent) of the Participants Sampled Did Not Have Adequate
        Information to Support an Eligibility Determination, or Were Ineligible ........................ 6

     2. Costs Were Not Distributed Equitably Among Cost Objectives.................................... 11

     3. Performance Data Reviewed Was Accurate and Supported .......................................... 13

SCHEDULES

                Schedule A - Schedule of Costs Claimed .............................................................. 14

                Schedule A-1 - Schedule of Costs Claimed, Supplemental Information ................ 16

                Schedule B - Schedule of Performance Reported .................................................. 17

APPENDIX

    Appendix A – Transition Resources Corporation Written Response to Draft Report......... 19
                                    ACRONYMS




CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DSFP -    Division of Seasonal Farmworkers Programs

ESL   -   English as a Second Language

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

GED -     General Equivalency Diploma

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

TRC   -   Transition Resources Corporation

WIA   -   Workforce Investment Act




                                         i
                                 EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Stokes & Knight P.A., to perform an audit of the Workforce Investment Act's
National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and non-profit
organizations to operate the program within 48 states and Puerto Rico. We selected a statistical
sample of 9 grantees for review and tested the direct and indirect costs claimed for
reimbursement by these grantees to determine if the costs claimed were reasonable, allowable
and allocable under the cost principles set forth in OMB Circular A-122, or OMB Circular A-87,
as applicable, and grant guidelines, and performance reported to determine whether it was
accurate and properly supported. The Program was audited for program year 2000 (July 1, 2000
through June 30, 2001).

This report discusses the results of our audit of Transition Resources Corporation (TRC) under
DOL Grant Number AC-10734-00-55. Under the authority of the Workforce Investment Act
(WIA), DOL's Employment and Training Administration (ETA) awarded TRC $850,271 to
provide training and services to eligible migrant and seasonal farmworkers throughout the state of
Indiana to strengthen their ability to achieve economic self-sufficiency. During PY 2000, TRC
placed 33 participants in unsubsidized jobs, and provided 168 with supportive services.

Findings

Our audit resulted in questioning costs for some costs that were not in compliance with laws and
regulations. We reviewed 42 participant files to examine eligibility, costs and types of services
provided, and performance outcomes reported. Twenty-one of the 42 were either lacking
documentation to determine eligibility or were ineligible. This represents a lack of management
control over the eligibility screening process. We question $1,050 after revisions for data
provided in the auditee’s response to our draft and recommend that ETA recover the $1,050 and
ensure TRC institutes a system that requires the appropriate documentation be provided before
any funds are provided to a participant.

We also noted that purchases of office furniture that benefited more than one program were
charged entirely to the DOL grant. This resulted in questioned costs of $3,545, the amount in
excess of the amount attributable to the DOL grant. We recommend that ETA recover the $3,545.
The auditee concurred with this finding and has taken corrective action, subject to ETA approval.
 Therefore, we question $4,595 of the $850,271 that DOL awarded TRC.

The performance reported was found to be accurate and supported based on the testing we
performed.

The auditee has provided a written response included as Appendix A in this report. We have
revised questioned costs related to Finding 1 based on data provided in this response. We still
feel that documentation was inadequate, but note that procedures have been modified since our
visit. The auditee has also taken corrective action described in their response on Finding 2. We

                                                1
did not receive any support for this corrective action so we have left resolution of that finding to
ETA’s discretion on receiving supporting documents for the action described in the response.




                                                  2
                       INTRODUCTION AND BACKGROUND


The Division of Seasonal Farmworker Programs (DSFP) within ETA is responsible for
administering the National Farmworker Jobs Program (NFJP). The intent of NFJP, under section
167 of the Workforce Investment Act, is to strengthen the ability of eligible migrant and seasonal
farmworkers and their families to achieve economic self-sufficiency through job training and
other related services that address their employment related needs. Assistance from the NFJP is
accessed through the NFJP grantee partners and local One-Stop Centers.

Transition Resources Corporation (TRC), a 501(c)(3) organization, is one of 53 grantees within
the United States and Puerto Rico that provide employment and training services to migrant and
seasonal farmworkers. TRC is part of Telamon Corporation, whose home office is located in
Raleigh, North Carolina. TRC operates an administrative office in Indianapolis, Indiana with
satellite offices in Kokomo, Madison, Marion, South Bend and New Albany. Memoranda of
Understandings have been signed with local Workforce Investment Boards in an effort to serve
mutual customers through an integrated system of service delivery in a single location—the One-
Stop Career Center. Through the use of One-Stop Career Centers at their satellite offices, TRC
provides core, intensive and training services to eligible farmworkers and their families.

TRC was awarded a grant in the amount of $850,271 to provide training and services to eligible
migrant and seasonal farmworkers. Core services include outreach, admission and orientation of
farmworkers, as well as emergency assistance needed by farmworkers to sustain their
participation in the agricultural workforce. Intensive Services include in-depth assessments of
aptitudes and abilities and the development of an Individual Employment Plan based upon these
assessments. Training services are usually in the context of a classroom environment and are
provided by institutions that subcontract with TRC on a per-participant basis according to the
objectives of the participant’s Individual Employment Plan. TRC also offers specialized
farmworker training services, such as workplace and pesticide safety training, in addition to
providing other related services such as housing development assistance.




                                                3
                 OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objectives of our audit were to determine whether the costs claimed by TRC for the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable, and
allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines and to
determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting records
and other accounting procedures as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669, National Farmworker Jobs
Program under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements
and Audits of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed in
the Findings section of this report.

Compliance with Laws & Regulations

In order to determine compliance with the above mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on the
compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of non-compliance are discussed in the Findings section of this report.




                                                4
Our sample of participants included both participants terminating during the period as well as
those still enrolled at the end of the program year. In PY 2000, TRC served 334 participants, of
whom 217 were terminated during the year. The largest group of those exiting (168 or 78
percent) comprised migrant farmworkers who received emergency related assistance services,
most commonly in the form of food or transportation assistance. The second largest group (33 or
15 percent) comprised unsubsidized employment placements. The remainder comprised 16 other
terminations (7 percent). We reviewed a sample of 42 participant files. Our sampling technique
was a statistical random number selection so that all participants had an equal chance of being
selected. Procedures performed on the selected participants included reviewing the eligibility
determination, reviewing the types of services provided and the cost of those services, and
reviewing the program outcome for those exiting the program.

The costs reported and performance reported by TRC are presented on the Schedules of Costs
Reported and Performance Reported in this report. These schedules, included as schedules A and
B, respectively in this report, are based on the information reported to ETA in the Financial
Status Report and the Program Status Summary.


Entrance and Exit Conferences


We held an entrance conference with TRC officials on November 26, 2001 for the fieldwork
relating to participant eligibility and program performance. This work was performed at TRC’s
office in Indianapolis, IN, during the period November 26 through December 7, 2001. Our
fieldwork relating to the direct program and administrative costs associated with TRC’s
administration of the program was performed at the corporate headquarters of Telamon
Corporation, the parent company of TRC, in Raleigh, NC, during the period December 11, 2001
through February 8, 2002. The entrance conference for this segment of the fieldwork was held on
December 10, 2001 during which we met with officials of Telamon Corporation to discuss the
purpose, scope and timing of the audit work to be performed. We held an exit conference with
these same officials on February 8, 2002, to discuss our findings and to obtain their comments.


Auditee’s Written Comments


A draft copy of this report was sent to TRC on March 18, 2003. TRC provided their written
response to the report April 4, 2003. The written response is included as Appendix A, beginning
on page 19.




                                               5
                                         FINDINGS


    1.   Twenty-One of the 42 Participants (50 Percent) Sampled Did Not Have
         Adequate Information to Support an Eligibility Determination, or Were
         Ineligible

During program year 2000, TRC provided training and services to over 300 participants. To
determine how effective TRC's management controls over selecting eligible participants were,
we selected a sample of 42 participants. Thirty-eight of these participants received support
services/core services only and the remaining four received some type of training services. We
found 21 (50 percent) of the 42 participants sampled were either ineligible (4), or their files did
not contain adequate information to support TRC’s eligibility determination (17).

To be eligible under NFJP, a person must be a disadvantaged migrant or seasonal farmworker or
their dependent, who has been primarily employed in agricultural labor that is characterized by
chronic unemployment or underemployment during the 12-month eligibility period (12 months
within the 24 months immediately preceding the application for services) and:

•         Is a citizen, or someone authorized by the Attorney General to work in the U.S., and

•         All male applicants must have registered for military selective service.

A migrant farmworker is a seasonal farmworker whose agricultural labor requires travel to the
job site, without being able to return home to his/her permanent residence the same day.

The Attachment to NFJP Bulletin No. 00-02, effective July 1, 2000, states that: As part of their
system of internal controls, grantees are expected to obtain source documentation that verifies
the information provided by applicants covering such key eligibility elements as age, work
history and earnings from agriculture labor, family size and income, work authorization, and
compliance with Selective Service requirements.

In addition, paragraph 669.360(b) of WIA states that: In providing emergency assistance, the
MSFW may use an abbreviated eligibility determination process that accepts the applicant’s
self-attestation as final evidence of eligibility, except that self attestation may not be used to
establish the requirements of legal working status in the United States, and Selective Service
registration, where applicable

TRC Did Not Properly Document Participant Eligibility

For the majority of the ineligible participants in our sample (17), -TRC did not have adequate
documentation in the participants’ files to support their eligibility determination. The files lacked
the minimum requirements for documentation as required by regulations. The files in question
lacked identification, social security cards, and/or INS documents necessary to establish legal
work status. Since we were unable to verify the eligibility of the participants we questioned the

                                                   6
unsupported costs. These participants received only support services at TRC while traveling
through Indiana and documentation was not obtained at the time of enrollment.

The sample reviewed also provides some insight into the level of services provided to the
participants. Our sample was made up mostly of those participants receiving support services,
which is consistent with the population served by TRC. Our testing revealed that most of the
support received was minimal, ranging from $35 food vouchers to $100 car repairs and other
similar costs. There were some participants who received large amounts of support, but they
were in the minority.

Since TRC’s records did not properly support their determination of the participants’ eligibility,
we question the emergency assistance payments made to the participants in question, primarily
food and gas vouchers of $925.

TRC Terminated Ineligible Participants But Only After Receiving Services

The following describes why the remaining four participants were ineligible:

Two participants were ineligible because the documentation they provided was invalid. TRC
discovered this during an internal review before any services were provided, and terminated the
participants. Therefore, there are no questioned costs for these participants.

One participant was ineligible because he did not have adequate farmwork to meet NFJP
requirements. TRC determined the participant to be ineligible and terminated the participant, as
they were unable to verify the farmwork that was claimed by the participant. The ineligible
determination came after the provision of emergency assistance, but before the participant was
enrolled in training activities. This participant received several forms of emergency assistance
including rent assistance, utility payments, and food vouchers. The costs of services provided
totaled $1,932, which we question.




                                                 7
The last participant had family income that exceeded the threshold for eligibility. TRC terminated
the individual after a review found that total family income was too high for the program. This
determination came after emergency assistance had been provided. The total services provided
totaled $125, which we question.

Conclusion:

Our sample testing revealed that TRC has weak management controls over eligibility
documentation. Since the participant population at TRC receives mainly support services as most
of these participants travel the migrant stream, if documentation is not obtained at time of
enrollment there may not be another opportunity to obtain this information. We noted that TRC, as
part of their internal control procedures, reviews participants’ files and terminates those found to
be ineligible. However, the review did not always occur in time to prevent federal funds from
being spent on ineligible participants. This post enrollment internal review is not effective when
so many participants obtain all their services in one visit. Only an effective eligibility screening
process at the point of enrollment will ensure proper documentation to be able to prove the
eligibility of those that have been served by the program.

TRC is not in compliance with guidance from ETA of obtaining adequate source documents to
verify key eligibility requirements. Without having proper documentation program management
cannot determine if the services provided by TRC are reaching those farmworkers that the NFJP
was intended to help and ensure Federal funds are properly safeguarded.

To demonstrate the large error rate noted, and the weaknesses of internal controls, we projected
the error rate to the universe of participants who received TRC services. We found that projected
payments to participants whose files lacked documentation to support their eligibility totaled
$23,714.* While we cannot question a projected amount, the projection provides a better
understanding of how TRC’s weak internal control over the participant eligibility determination
process may not have adequately safeguarded Federal funds.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training ensure TRC:

      1. Reviews its internal procedures to ensure that participants enrolled meet eligibility
         requirements.

      2. Retains adequate documentation of eligibility so that eligibility can be independently
         verified.

      3. Repays the $2,982 in questioned costs.




* The $23,714 is the point estimate of disallowed costs using a confidence level of 90 percent.

                                                                8
Auditee’s Response:

…Our system and procedures for determining and documenting eligibility of NFJP applicants
is constructed on the basis of the Workforce Investment Act, regulations at § 669, Policy
Guidance published at Bulletin 00-02 and sound business practice….In this regard, manual
instructions say:

      “Determination of eligibility should be supported by available documentation
      showing authorization to work, draft registration, work history and income
      level. Copies should be made of all available documents for the customer
      service folder, and notation should be made on each copy concerning whether it
      has a seal, is notarized, or otherwise appears to be authentic. In no case should
      we keep original documents such as I-9’s, draft registrations, or documentation
      showing work history and income including check stubs, W-2’s, or other income
      tax forms.”

The forgoing instruction takes into account the probability that, unlike applicant contacts in
local offices, outreach to remote labor camps would be done without the benefit of electronic
photocopiers. In these cases employees are instructed to view the documents and record their
alpha-numeric characters (i.e. license and social security numbers, authorization card
symbols, etc.). On the application form itself (Exhibit A) there is a clear direction to note both
the documents viewed and their identifiers. As a footnote, since the time of the review,
affordable, portable telecopy equipment was introduced on the market and was purchased by
outreach staff. This purchase was made in reaction to the OIG review although there
continues to be no statutory or regulatory requirement that documents be photocopied….

With respect to the two participants noted in the report as having initially been determined
eligible then later determined ineligible and terminated:

     o (Name omitted) applied for services on May 25, 2001. When adding her income to
       that of her husband, the case manager failed to include $3,425 earned by the
       applicant in non-farmwork, determined the applicant eligible and provided Related
       Assistance services in the amount of $125. When the application form was
       subsequently screened by the Customer Records Specialist who noted the error,
       notice was immediately sent to the enrolling office that family income exceeded
       guidelines resulting in immediate termination from the program.
     o (Name Omitted) applied for services on June 15, 2000. She was determined eligible,
       was eligible as documented by income verifications, and began receiving services in
       the accumulated amount of $1931.58. Her failure to continue active and cooperative
       participation resulted in her being terminated from the program on February 23,
       2001. She returned to apply for services on October 22, 2001 and was determined
       ineligible for services. (See Exhibit D) Documentation on that determination was
       apparently reviewed by the auditors, who evidently attributed this second application
       action to the former action.




                                                 9
We believe that procedures in place to verify available eligibility documents of all applicants,
including those who make contact with outreach staff in remote areas, are adequate and in
compliance with regulations and other guidance for the NFJP. As indicated above, subsequent
independent reviews of eligibility documents provide another opportunity to identify and
correct mistakes. It is further critical to note, as reviewers did, that funds expended in these
cases were nominal emergency assistance amounts; and that when participants desire to enter
training, additional verification procedures are in place to prevent misexpenditures on
ineligible applicants. In this regard, we request relief of these questioned costs under section
184 (c) and (d) of the Workforce Investment Act and Section 677.720 of WIA regulations.

Auditor’s Comments:

We do not feel that simply writing down the identifying information from documents examined is
adequate documentation as described in NFJP Bulletin 00-02. We saw other procedures in place
during other reviews such as affidavits prepared by staff in the rare instance that a copy was not
available that we felt provided more assurance. The grantee went on to note that corrective
actions have since been put into place, so this should not be an issue for the future.

Based on the information submitted with Exhibit D (not included in the report due to personal
information contained), we concur with the grantee’s description of the situation described in the
second bullet point. When the participant in question enrolled, they were only provided
emergency assistance services. The participant was terminated and then later wished to enroll in
training. However the eligibility determination at the second enrollment found the person
ineligible. This second determination should not have been used to determine the participant
ineligible for the emergency services they were provided in the earlier enrollment. We still
recommend that costs be questioned in the first bullet point since it was an error made in the
determination process.

Based on the information provided in the response, we recommend that the questioned costs be
reduced by $1932 to $1050 for this finding.




                                                10
2.   Costs That Benefit More Than One Program Were Not Distributed Equitably
     Among Cost Objectives


TRC purchased $9,306 worth of office furniture in Indianapolis and charged the entire amount to
the WIA grants. The furniture benefited all of the programs administered by TRC; therefore, the
costs should have been allocated to each program using the same methodology that TRC used to
allocate its other shared direct costs.

TRC has developed a methodology for allocating certain direct costs that benefit more than a
single cost objective. This methodology involves using an internally generated report called a
“labtag” report, which details the distribution of time spent in an office on each cost objective.
These reports are generated periodically and the percentages of time spent are used by TRC to
distribute certain recurring direct costs, such as utilities cost, among different programs when the
specific amount chargeable to each program cannot be readily identified and segregated.

Attachment A of OMB Circular A-122, A. 4. Allocable Costs states:

        a. A cost is allocable to a particular cost objective, such as grant,
        contract, project, service, or other activity in accordance with the
        relative benefits received.

In order to determine the appropriate allocation of the furniture costs, we obtained the relevant
percentages from the labtag reports and applied them to the cost of the furniture to arrive at an
amount chargeable to the WIA grant. We are questioning $3,545; the amount of cost we believe
was of benefit to the other programs administered by TRC.

In our testing we noted that TRC has a system in place for the allocation of most costs. This
system is used on most material costs such as rent and overhead-related accounts. Our finding
relates to costs that are not allocated using this method. The NFJP grant is unfairly being charged
for the full amount of items that clearly have benefit to other grant programs operating at the
various TRC offices.




                                                 11
Recommendations:

We recommend that the Assistant Secretary for ETA require TRC to:

    1. Establish controls to identify all costs benefiting multiple cost objectives and ensure that
       these expenditures are allocated in accordance with the methodology discussed above, so
       that each program administered by TRC bears its proportionate share of the cost of
       operation.

    2. Repay the $3,545 in questioned costs.

Auditee’s Response:

…When the invoices for the furniture purchases were allocated to affected grants only NFJP was
charged. The total amount of the invoices was $9,305.72 (rounded to $9,306 by the auditors).
$5,662.33 was chargeable to the NFJP grant and $3,643.39 (not $3,545 as stated in the auditor’s
report) should have been allocated to other grant accounts. Applicable adjustments have been
made since the error was identified by the auditors, reducing charges to the NFJP grant by
$3,643.39. As this error resulted from a misallocation, not a misexpenditure, and was corrected
after it was identified we request relief from the questioned cost…

Auditor’s Comments:

Documentation of the subsequent adjustment was not included with the Auditee’s response, so we
can not verify its completion. However if satisfactory evidence is provided to the Assistant
Secretary for ETA for the adjustment, we would concur with the relief from the questioned cost.




                                               12
 3. Performance Data Reviewed Was Accurate and Properly Supported



We reviewed the data reported by TRC on the Program Status Summary to determine whether this
information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases TRC maintained. A summary of this
data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
Program Status Summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our review agreed with the reported
outcomes for those participants that exited the program. We were also able to verify the
placement of those participants with a job placement outcome.

Our finding related to performance data is in Finding 1. Based on the information in the finding,
the eligibility of a large number of participants who only received services and terminated the
program is improperly documented. We do not question the number of people reported as service
only exits (168), but based on our sample results in Finding 1, many of those reported may be
questionable as to their eligibility for the program overall.




                                                13
                                              Schedule A

TRANSITION RESOURCES CORPORATION
         INDIANAPOLIS, IN

     SCHEDULE OF COSTS REPORTED
      Program Year Ended June 30, 2001


Financial Status Report         Reported

1. Classroom Training           $    80,650

2. On the Job Training                   0

3. Work Experience                     870

4. Training Assistance                   0

5. Services Only                    163,457

6. Administration                    45,465

7. All Other Program                515,601

8. Total                        $ 806,043




                          14
                                                                                      Schedule A

                                  TERMINOLOGY USED


Classroom Training Costs related to participants provided some form of organized classroom
                   training. Generally includes tuition costs, stipends, and support provided
                   while in training.

On the Job Training Costs paid to reimburse an employer for half of the wages paid to a
                    participant during a contractual training period. Also includes support
                    paid to the participant.

Work Experience      Wages paid to a participant placed in a job by the grantee in order to assist
                     the participant by gaining practical work experience.

Training Assistance This is a category carried over from JTPA generally not used under WIA
                    reporting.

Services Only        Costs related to participants that are only provided support service, with no
                     enrollment in training programs.

Administration       Salaries and overhead costs related to general administration of the
                     program and not directly providing program services. Costs are limited
                     under the grant agreement.

All Other Program    Salaries and overhead related to overall running of the program not broken
                     out in any category above.




                                               15
                                                                                 Schedule A-1

               TRANSITION RESOURCES CORPORATION
                        INDIANAPOLIS, IN

                    SCHEDULE OF COSTS REPORTED
                     SUPPLEMENTAL INFORMATION
                      Program Year Ended June 30, 2001

                                                Costs        Costs
        Category                                Incurred     Reported

        1. Classroom Training
           A Tuition                            $ 28,913
           B Allowances                           25,883
           C. Supportive Services                 25,854        80,650

        2. On the Job Training                  $       0             0

        3. Services Only
           A. Salaries and Fringe Benefits      $ 57,770
           B. Office Costs and Overhead           38,577
           C. Supportive Services                 67,110       163,457

        4. Training Assistance                  $       0             0

        5. Work Experience
           A. Stipends                          $     870          870

        6. Administration
           A. Indirect Administration           $ 42,389
           B. Miscellaneous Other                  3,076        45,465

        7. Other Program
           A. Salaries and Fringe Benefits      $328,087
           B. Office Costs and Overhead          187,514       515,601

        8. Total                                $806,043      $806,043


 Note:    The above information is not required to be reported to ETA, and was created
by reviewing the financial records used in preparation of the Financial Status Report.




                                      16
                                                                                                                         Schedule B

                                 TRANSITION RESOURCES CORPORATION
                                                      INDIANAPOLIS, IN

                             SCHEDULE OF PERFORMANCE REPORTED
                                            Program Year Ended June 30, 2001

               Category                                                          Planned        Reported

               Total Participants                                                    375             334

                  Total Terminations                                                 210             217

                    Entered Unsubsidized Employment                                  40               33

                        Direct Placement                                               -               -

                        Indirect Placement                                             -               -

                    Also Obtained Employability Enhancement                            -               -

                    Employment Enhancement Only                                        -               -

                    Services Only                                                      -             168

                    All Other Terminations                                           170             16?

                  Total Current Participants (End of Period)                         165             117

Note: The Program Status Summary Forms used were brought forward from the previous JTPA
program. Many of the categories above were not required to be reported under new guidelines.




? The reported total of 11 All Other Terminations has been corrected for five participants were that excluded from the
supporting detail but included in the overall total of 217.

                                                              17
                                                                                            Schedule B

                                  TERMINOLOGY USED


Participants                            Disadvantaged migrant and seasonal farmworkers
                                        and their dependents

Total Participants                      Participants that were provided any services during
                                        the program year. Includes participants carried
                                        over, new participants, and those exiting during the
                                        program year.

Total Terminations                      Participants who exited the program during the year.

Entered Unsubsidized Employment         Participants placed in a non-federally subsidized
                                        job.

Direct Placement                        Participants referred directly to a job with no
                                        training services provided. (Detail not required to
                                        be reported under WIA)

Indirect Placement                      Participants placed in a job after training or
                                        enhancement services. (Detail not required to be
                                        reported under WIA)

Also Obtained Employability
Enhancement                             Participants placed that also received services
                                        improving job prospects, such as completing GED
                                        program, obtaining a degree, completing
                                        occupational training. (Detail not required to be
                                        reported under WIA)

Employment Enhancement Only             Participants not placed in a job but exiting the
                                        program with enhancements to improve job
                                        prospects. See examples above. (Detail not
                                        required to be reported under WIA)

Services Only                           Participants that exited the program with support
                                        services only, with no training or referral to
                                        employment.

All Other Terminations                  Participants that exited the program that do not fall
                                        into any other termination category.




                                          18
                         Appendix A
Response to Draft Report by Transition Resources Corporation


  (Note that the attachments to Exhibit C and Exhibit D are not
   included due to privacy issues due to personal information
                           submitted)




                               19
20
21
22
23
24
25
26
27
